                              SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-14                                    Office of Inspections                                  February 2013




                Inspection of

  Regional Information Management Centers





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                    1

Context                                                          2

Overseas Staffing                                                3

Mission and Goals Clarity                                        5

  Core Responsibilities                                          5

  Ancillary Responsibilities                                     6

Leadership and Management                                        9

  Staff Development                                             10

Management Controls                                             11

  Service-Level Agreements                                      11

  Property Management                                           11

  Quality Management                                            12

  Centralized Knowledge Management and Collaboration Platform   13

  Service Request Management Remedy Software                    13

List of Recommendations                                         15

Principal Officials                                             17

Abbreviations                                                   18





                                    iii

                       SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



Key Judgments
    •	 The Regional Information Management Centers (RIMC) deploy approximately 100
       people overseas. At least 80 percent of the work staff members perform is not time
       sensitive and does not require their being overseas. Moving 80 percent of the RIMC
       positions back to the United States would reduce the exposure of American personnel to
       security risks overseas and save as much as $18.3 million a year in recurring
       administrative support costs.

    •	 Leaving 20 percent of the RIMC workforce deployed overseas would be sufficient to
       provide timely support for repairs or crises.

    •	 RIMC personnel assigned to repair radio, telephone, and digital equipment overseas do
       not receive sufficient training.

    •	 RIMC management controls require strengthening. The RIMCs do not have a
       comprehensive quality management program for their most frequent activity of rendering
       assistance to posts. They also lack a standardized system to manage and account for
       equipment valued at approximately $3.3 million.

The inspection took place in Washington, DC, between September 10 and 29, 2012; in Ft.
Lauderdale, Florida, between October 1 and 15, 2012; in Frankfurt, Germany, between October
17 and November 1, 2012; and in Bangkok, Thailand, between November 2 and 15, 2012.
(b) (6)
                  conducted the inspection.




                                      1
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Context

        Three RIMCs provide information technology (IT) support to all embassies, consulates,
and other Department of State (Department) missions overseas. They are located in Ft.
Lauderdale, Florida; Frankfurt, Germany; and Bangkok, Thailand. A RIMC Washington office
sets policy, coordinates with other Bureau of Information Resource Management (IRM) offices
and regional bureaus, and supervises the directors of the three RIMCs.

        More than 130 RIMC information management specialists (IMS) and information
management technology specialists (IMTS) are assigned to the RIMCs. The IMSs focus on
general IT management, and the IMTSs further specialize in technologies such as digital, radio,
and telephone. There are 87 IMTS personnel, representing 70 percent of the total RIMC
workforce; 41 IMTSs are dispersed to 19 missions outside the regional centers.

      Each of the three RIMCs is organized into four branches: Digital, Operations, Radio, and
Telephone. They perform the following support functions:

   1.	 Technician support when equipment breaks and/or a system fails.
   2.	 Technician support when communications (radio, telephone, or digital 

       equipment/systems) are disrupted by a natural disaster or civil disorder. 

   3.	 Radio technician support for Secretary of State and other high-level visits.
   4.	 Technician support to IRM offices for surveys, installations, and acceptances of

       equipment and systems deployed to posts. 

   5.	 Assistance to information management officers (IMO) in maintaining equipment and
       systems.

        In addition, on behalf of the Foreign Service Institute (FSI), the RIMCs manage regional
centers to train IT personnel in their respective regions. Adjunct instructors are drawn from
RIMC IMS and locally employed (LE) staff. RIMC Frankfurt also manages eight IMS rovers for
the Bureau of European and Eurasian Affairs (EUR) and a hard-drive destruction operation for
all regional bureaus except for the Bureau of East Asian and Pacific Affairs.

         In FY 2012, the Department spent an estimated $43 million to operate these regional
centers, including the 41 positions it assigned outside the regional centers. The RIMCs have
multiple funding sources. IRM funds travel for overseas RIMC employees to enable them to visit
posts for repair (Break-Fix) or crisis response. IRM budgeted $2.1 million in FY 2012 for this
travel. IRM manages and funds RIMC Ft. Lauderdale as a domestic operation. Positions at
RIMCs Frankfurt and Bangkok receive funding from the respective regional bureaus they serve.
Regional bureaus, IRM program offices, and posts sometimes fund the travel of RIMC staff on a
project-by-project basis.

        The RIMC structure has been in place since 1975. During this time, advances in
technology have altered the Department’s IT framework significantly. For example, with remote
support tools, RIMC technicians can now access geographically dispersed systems from their
desks. Additionally, FSI training programs have improved the competence of the IT workforce
and its ability to keep pace with advances in technology, reducing the need for outside support.


                                       2
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Overseas Staffing 

       The OIG team found inadequate justification for the Department to maintain many of the
RIMC personnel overseas. These employees are located abroad to provide time-sensitive
services that require immediate response, such as repairing broken equipment and reestablishing
communications that are interrupted by natural disaster or civil disorder. However, the majority
of RIMC support is for routine and predictable work, such as site surveys, systems installations
and upgrades, operations and security reviews, and preventive maintenance.

       Technological advances also enable RIMC technicians to resolve many problems
remotely, without traveling to post. As a result, last-minute overseas travel to repair systems or
equipment is rare. Furthermore, personnel located in the continental United States could perform
non-urgent tasks.

        Considerable data verify the routine nature of RIMC services. An OIG Customer
Satisfaction Survey conducted in September 2012 and interviews with RIMC personnel indicated
that RIMC travel is scheduled largely in advance. FY 2012 RIMC travel data indicate that only 3
percent of travel was for time-sensitive emergencies. Furthermore, IRM’s February 2010
Regional Information Technology Support Review indicated that emergency and priority travel
accounts for less than 20 percent of RIMC visits. The 2010 review states that “trips for routine
maintenance and repairs, installations, site surveys, etc. are not time-sensitive and could, in
theory, be done by Washington-based personnel.”

        The Department needs to maintain a small number of RIMC technicians overseas to
provide rapid response that requires geographic proximity. As a general rightsizing principle,
however, if the work can be performed from the United Sates, it should be. Reducing the number
of costly overseas positions and decreasing the exposure of American personnel to threats
overseas are the deciding factors. The difference in recurring costs between an overseas and a
U.S.-based position is roughly $232,000 a year.

        The OIG team conducted more than 150 interviews with RIMC managers and
technicians, regional bureau executive office directors and staff, and IRM program office
managers. Inspectors reviewed RIMC records, IT Service Center service requests, and the results
of OIG surveys. The team concluded that the RIMCs could move 80 percent of their overseas
U.S. direct-hire positions to the United States to perform routine and non-time-sensitive services,
such as site surveys, systems installations and upgrades, operations and security reviews, and
preventive (operational) maintenance at posts.

        One cause of the excessive overseas staffing is that the RIMCs are not subject to periodic
review to justify their staffing levels. The Office of Management Policy, Rightsizing, and
Innovation (M/PRI) has not subjected RIMC Frankfurt or RIMC Bangkok to a rigorous review to
determine whether they could perform some or all of their activities using personnel based in the
United States. Lacking the analytical tools to validate the overseas presence of the RIMCs,
M/PRI instead defers the analysis to each RIMC’s host post. Embassies Berlin and Bangkok
considered their respective RIMCs in their 2012 rightsizing reviews, but the OIG team found no
indication that either embassy validated the RIMC overseas presence against the fundamental
question posed in 2004, when the Department established M/PRI. That question is, “Must a

                                       3
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


function be performed overseas?” As recently as September 2012, M/PRI highlighted its two
major challenges in a memo to the Secretary as “taking regionalization and cost-cutting
seriously” and “consolidating and reducing the U.S. presence overseas.”

        IRM and the regional bureaus are skeptical that much of the RIMCs’ work can be
performed effectively by personnel based in the United States. But even IRM’s own internal
reports suggest that a reduction in overseas staff is feasible, and the OIG team concurs.
Relocating to the United States those RIMC personnel who do not perform emergency or other
time-sensitive services would strengthen the Washington-based workforce and facilitate the
provision of more efficient and cost-effective support.

Recommendation 1: The Bureau of Information Resource Management, in coordination with
the Office of Management Policy, Rightsizing, and Innovation, and the Bureaus of European and
Eurasian Affairs, East Asian and Pacific Affairs, African Affairs, Near Eastern Affairs, South
and Central Asian Affairs, and Western Hemisphere Affairs, should implement by January 2015
a plan that reduces the current Regional Information Management Centers’ overseas presence by
80 percent and that maintains those overseas positions that are necessary to provide time-
sensitive, immediate-response services. (Action: IRM, in coordination with M/PRI, EUR, EAP,
AF, NEA, SCA, and WHA)




                                      4
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Mission and Goals Clarity

        Over the years the Department has wrestled with justifying the RIMCs’ existence and
defining where they fit within the IRM service management approach. At the time of the
inspection, it was clear that beyond the traditional repair and crisis-response functions, there was
no consensus within IRM about the RIMCs’ mission. As part of the rightsizing effort, the
Department needs to define the regional centers’ mission clearly and remove unrelated
responsibilities, such as conducting preventive maintenance, upgrading and installing systems,
managing EUR’s information technology rover program, conducting overseas IT training, and
managing the hard-drive destruction program.

Core Responsibilities

        Unpredictable funding has hindered RIMC managers’ efforts to plan and implement
assistance visits, including those for emergency repairs. Beginning with FY 2012, the Acting
Chief Information Officer improved the process and increased funding so that RIMC technicians
could travel to posts to repair equipment and provide communications support during crises. The
Acting Chief Information Officer also mandated that RIMC technicians spend between 40 and
50 percent of their time on the road. Indeed, with the increased funding, RIMC technicians now
spend more time—sometimes in excess of 50 percent—on the road. The extra travel funding has
boosted the morale of RIMC staff members and enabled them to reduce a backlog of work
created during the previous years of underfunding. However, the majority of IRM-funded travel
is now for routine and predictable work, such as operations and security reviews and preventive
maintenance.

        Although there is merit in having RIMC technicians participate in surveys and in
installations and upgrades of equipment from a U.S.-based operation, there is no need for them to
do so from more costly overseas locations. The OIG team also found merit in the RIMC
Washington office’s proposal that the regional centers be tasked and funded to perform
preventive maintenance and inspection of all IT equipment at posts, but again from a U.S.-based
operation. The RIMCs have identified lack of maintenance as the cause of major and costly
system failures. The OIG team concurred that there is a need for regular preventive maintenance
of IT equipment at posts. Performing regular maintenance could generate significant savings for
the Department in less time lost and work performed due to equipment malfunction, repair, and
replacement.

        RIMC staff across the board told the OIG team that post IMOs and the Washington
program offices have neither the time nor the resources to perform preventive maintenance. Staff
also indicated that IRM’s Washington program offices do not have preventive maintenance plans
for the equipment they deploy. Therefore, post IMOs have minimal guidance and resources to
perform routine maintenance. Although the scope of this inspection was limited to the RIMCs,
the RIMCs’ proposals to perform additional services underscores gaps in IRM’s support to
overseas posts, particularly in areas of preventive maintenance, 24/7 help desk, and crisis
support. IRM’s lack of a robust U.S.-based operation to assist overseas missions with routine
maintenance, upgrades, and similar tasks places government resources at risk and undermines
rightsizing efforts.


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Recommendation 2: The Bureau of Information Resource Management should define and
prioritize the Regional Information Management Centers’ overseas and U.S.-based services,
limiting those performed from overseas support platforms to repair and crisis-response support
and making the stateside operation responsible for all other services such as surveys,
installations, equipment upgrades, preventive maintenance, and help desk support. (Action:
IRM)

         The RIMCs’ roles in assisting posts whose communications have been disrupted by
natural disasters or civil disorder are not well defined. All regional bureaus rated area emergency
support as their top priority in a 2012 RIMC survey, but the roles and responsibilities of the
RIMCs during emergencies remain unclear. Moreover, the RIMCs do not have guidelines or a
dedicated inventory of tested communications equipment to support embassies during emergency
or crisis events. As a result, emergency response efforts can be inconsistent, ad hoc, and delayed.

Recommendation 3: The Bureau of Information Resource Management, in coordination with
the Bureaus of European and Eurasian Affairs, East Asian and Pacific Affairs, African Affairs,
Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere Affairs, should
define the roles and responsibilities of the Regional Information Management Centers during
crisis events and put appropriate emergency action plans into place. (Action: IRM, in
coordination with EUR, EAP, AF, NEA, SCA, and WHA)

Ancillary Responsibilities

       The RIMCs manage programs for the regional and functional bureaus, such as the rover
program and the hard-drive destruction program for EUR, as well as the IT Training Centers for
FSI. These programs fall outside the RIMCs’ core responsibilities of emergency repair and crisis
response and should be assigned to other entities.

Rover Program

       RIMC Frankfurt currently manages EUR’s information management (IM) rover program,
which is also known as the systems operations officer program. Why and when EUR chose to
use RIMC Frankfurt to manage the rover program is unclear. In any case, EUR “owns” eight
rover IMS positions and one rover LE position, but RIMC Frankfurt is responsible for managing
them.

       Other regional bureaus do not use the RIMCs for this purpose. For example, Embassy
Bangkok manages the IM rover program for the Bureau of East Asian and Pacific Affairs; the Ft.
Lauderdale Regional Center IM office provides rover support to the Bureau of Western
Hemisphere Affairs; and the Bureau of African Affairs executive office handles its rover
program. The Bureaus of South and Central Asian Affairs and of Near Eastern Affairs do not
have rover programs and thus rely on—and compensate—EUR for the use of its rovers.

        The RIMC Frankfurt operations branch chief rates the eight EUR rover positions, and one
of the deputy directors reviews them; however, the eight positions do not perform any RIMC
duties. In addition, RIMC Frankfurt (with EUR approval) created and filled an LE position
specifically to manage rover travel schedules, obtain visas, provide fiscal data for the
Department’s E2 Solutions travel application, and similar tasks.
                                       6
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


        There is no valid reason for RIMC Frankfurt to continue managing EUR’s IM rovers,
encumbering part of the time of one of its branch chiefs and of one of its deputy directors to
perform a task that is not a core RIMC function. The time of these RIMC managers could be
better spent on core RIMC tasks in fulfillment of their work requirements. EUR could emulate
other regional bureaus whose rovers are based in the United States.

Recommendation 4: The Bureau of Information Resource Management, in coordination with
the Bureau of European and Eurasian Affairs, should direct the Frankfurt Regional Information
Management Center to cease management of the Bureau of European and Eurasian Affairs
information management rover program. (Action: IRM, in coordination with EUR)

Information Technology Training Centers

       IT Training Centers are managed and staffed differently at each RIMC. The centers are
extensions of FSI’s School of Applied Information Technology, which partnered with the
RIMCs to minimize the need for training-related travel to Washington.

        The IT Training Center in Frankfurt is integrated fully with the RIMC and is designated a
branch, with an IMS branch chief and two IMS and two LE adjunct faculty instructor staff
members. In Ft. Lauderdale, the IT Training Center falls under the Operations branch, and IT
training is a collateral duty for the IMS instructors. RIMC Bangkok does not have an IT Training
Center but assumed management responsibility for the School of Applied Information
Technology’s adjunct faculty program in October 2012. The management role entails
coordinating and scheduling IT training with FSI’s Regional Employee Development Center,
which is under the purview of Embassy Bangkok management. A RIMC LE staff member is one
of the three adjunct faculty instructors in Bangkok; the other two LE adjunct faculty instructors
work in the embassy’s IMO office. RIMC Bangkok does not have an IMS instructor.

        The OIG team did not identify issues with the quality of management and oversight of
these training centers. However, managing and providing training are not core functions of the
RIMCs and detract from their primary functions of managing crisis support and repair work. The
team also questioned the practicality of assigning IMS instructor personnel overseas to teach
subject matter areas that LE adjunct faculty instructors already cover. Another downside of using
IMS personnel is the rigorous certification requirements for teaching Microsoft applications.
Microsoft requires that instructors meet minimum training requirements before teaching one of
its courses. The OIG team was told that it takes from 1 to 8 months for an IMS to obtain the
required Microsoft certifications and be ready to train independently. The Department’s position
on the benefits of LE staff empowerment in rightsizing and conserving scarce U.S. direct-hire
resources is clear in cable 2010 State 016794, paragraph 4.

       Furthermore, in addition to the RIMCs, the Florida Regional Center, Frankfurt Regional
Center, and Bangkok Regional Employee Development Center manage training hubs for FSI.
Having the RIMCs maintain separate IT Training Centers for FSI results in duplication of
administrative services, such as logistical and computing support. For example, in RIMC Ft.
Lauderdale, the IMS instructors provide logistical support to prospective students while the
Florida Training Center provides similar services.

                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Recommendation 5: The Bureau of Information Resource Management, in coordination with
the Foreign Service Institute, should cease managing the Information Technology Training
Centers through the Regional Information Management Centers and cease assigning information
management specialists to instructor positions at the Regional Information Management Centers.
(Action: IRM, in coordination with FSI)

Hard-Drive Destruction Program

       RIMC Frankfurt manages the hard-drive destruction program for EUR and the Bureaus of
Near Eastern Affairs, Western Hemisphere Affairs, African Affairs, and (part of) South and
Central Asian Affairs. Embassy Bangkok manages this program for the Bureau of East Asian
and Pacific Affairs and proposes to extend the service to some South Asian posts. There are valid
cost-saving reasons for basing this program in an overseas mission that is a regional
transportation hub and that is served by diplomatic courier routes. Consulate General Frankfurt
and Embassy Bangkok meet these criteria.

       Originally, both RIMC Frankfurt and the Frankfurt Regional Center were offered
management of the hard-drive destruction program; RIMC Frankfurt volunteered. EUR provides
the funding for the cleared American eligible family member staff position, which the RIMC
Frankfurt Operations branch chief and one of the deputy directors supervises. RIMC Frankfurt is
encumbering part of the time of its Operations branch chief and of one of its deputy directors to
perform a service that is not a core RIMC function. The time of these managers could be better
spent on core RIMC tasks that fulfill the managers’ work requirements.

Recommendation 6: The Bureau of Information Resource Management, in coordination with
the Bureau of European and Eurasian Affairs, should cease the Frankfurt Regional Information
Management Center’s management of the hard-drive destruction program. (Action: IRM, in
coordination with EUR)




                                       8
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Leadership and Management 

        Across the RIMCs, personal and office morale was generally good, although many
Digital branch and Operations branch personnel expressed frustration with being underutilized or
“jobless.” For digital technicians, technological advances—such as the installation of the State
Messaging and Archive Retrieval Toolset—have substantially reduced the technical nature of
their work. IRM’s proposed merger of the Digital and Telephone branches and the prospect of
having to learn telephone skills are causing angst among digital technicians about their future.
For information systems operations and information systems security officers, there is little
demand from posts for the services they offer.

Washington Management Office

        In 2011, IRM established a Washington office, under the leadership of a senior Foreign
Service officer, to provide oversight of and policy direction to RIMCs Ft. Lauderdale, Frankfurt,
and Bangkok. The Washington office also serves as a central program and project clearing house
and acts as liaison with IRM program offices and regional and functional bureaus on behalf of all
the RIMCs. RIMC staff characterized the establishment of the management office as a major
step toward developing and enforcing standardized procedures, tasks, and performance metrics.

         The Washington team is energetically addressing the task of aligning the RIMCs with the
IRM service management approach. Priorities also include establishing a mechanism to facilitate
a predictable funding stream for travel of RIMC staff overseas, reconciling IMTS staffing with
field needs, and developing a training continuum for IMTS staff. The OIG team advised the
Washington managing director and team to tap RIMC senior managers to assist with these
priorities through virtual working groups.

Ft. Lauderdale

       Leadership of RIMC Ft. Lauderdale is strong, particularly the deputy director who has
been the acting director for more than a year.

        One administrative issue that requires attention is lack of Washington consultations for
RIMC Ft. Lauderdale managers. Because this RIMC is based in the United States, it is
administered and treated as a domestic operation. As a result, RIMC Ft. Lauderdale managers are
not authorized the Washington consultations en route (from an overseas post) to RIMC Ft.
Lauderdale that their counterparts in Frankfurt and Bangkok are routinely authorized. RIMC
managers in Ft. Lauderdale would benefit—as do their Frankfurt and Bangkok colleagues—from
having 3–5 days of consultations in Washington when returning from an overseas assignment.

Recommendation 7: The Bureau of Human Resources, in coordination with the Bureau of
Information Resource Management, should authorize managers assigned to the Regional
Information Management Center in Ft. Lauderdale 3–5 days of consultations in Washington en
route to the Ft. Lauderdale office. (Action: DGHR, in coordination with IRM)




                                       9
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Frankfurt

        The leadership team of RIMC Frankfurt is successful at managing a large workforce
spread among 14 missions, including difficult and dangerous posts such as Cairo. The challenges
RIMC Frankfurt faces, and its ability to meet them, were evident during the inspection, when
RIMC Frankfurt and Embassy Pretoria were engaged in working out the logistics of moving the
11-person RIMC office from Embassy Pretoria to Consulate General Johannesburg.
Miscommunication both within RIMC Frankfurt and between RIMC Frankfurt and Embassy
Pretoria had exacerbated unresolved issues about housing and renovation of office space to
accommodate RIMC personnel in Johannesburg. By the time the OIG team departed, these
issues had largely been addressed to the satisfaction of all affected by the move.

Bangkok

        The leadership team at RIMC Bangkok is adept at managing a dispersed workforce in a
region that spans seven time zones. In addition to Bangkok, there are four missions in the region
that host RIMC technicians. RIMC Bangkok’s empowerment of LE staff is noteworthy. The OIG
team discussed with RIMC Bangkok’s leadership the feedback from some of its technicians
assigned to the four missions in the region that the 50-percent travel mandate was “excessive,”
given the long distances and multiple time zones crossed when traveling within the region. The
OIG team suggested that RIMC Bangkok leadership limit the use of farflung “satellite positions”
for regionwide travel.

Staff Development

        RIMC technicians lack a career-span training continuum with demonstrable proficiency
standards. These technicians constitute 70 percent of RIMC personnel. The current training
program is not adequate to sustain a cadre of proficient technicians. FSI and vendor-provided
training is rare, on-the-job training is ad hoc, long periods of idle time are common, and
proficiencies are authenticated without evidence by managers. Without a practicable training
continuum, IRM’s technician workforce will find it increasing difficult to support Department
equipment.

        Entry-level IMTS personnel initially spend between 1 and 2 years in the Washington area
after their new-hire orientation. This period is intended to make them familiar with Department
systems and procedures. The OIG team sees merit in the proposal put forward by FSI’s School of
Applied Information Technology and the RIMC Washington office to extend the length of entry-
level training in order to provide the cross-training necessary for optimal performance.

Recommendation 8: The Bureau of Information Resource Management, in coordination with
the Foreign Service Institute, should implement a formalized career-span training continuum
with demonstrable proficiency standards for information management technology specialist staff.
(Action: IRM, in coordination with FSI)




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Management Controls
Service-Level Agreements

        The RIMCs regularly perform work in support of IRM program offices, such as the
Radio, Foreign Post Telephone, and Digital Services branches. These support services include
systems surveying, installing, upgrading, auditing, and training. The level of support and
outcomes are usually negotiated between managers without formal service-level agreements. At
present, the RIMCs’ support for the program offices changes as management changes. The level
of collaboration depends largely on personal connections. As a result, the RIMCs and program
offices face undue budgeting and planning challenges.

        The RIMCs are proposing that they perform more operational maintenance in support of
post IMOs. In both cases—installations and maintenance—the OIG team is concerned with
accountability. The lines of accountability for the installation and maintenance of IT equipment
at posts are blurred among IRM program offices, post IMOs, and the RIMCs, ultimately leaving
no one accountable. Using RIMC personnel to perform installation and operational maintenance
services, in effect, absolves IRM program offices and IMOs of their accountability for proper
installations and regular maintenance. RIMC staff indicated that the technicians frequently found
that IRM program offices had not adhered to proper IT installation standards when completing
work. The RIMCs usually end up correcting these issues, which results in additional costs for the
government.

        Accountability and service standards are not established for each installation/upgrade and
acceptance. Service-level agreements between the RIMCs and individual IRM program offices
would help establish accountability and service standards and would facilitate appropriate
consideration of the RIMCs’ roles in the life cycle management of projects. The agreements
would also improve scheduling, cost management, and service quality. At the time of the
inspection, the RIMCs, in coordination with the RIMC Washington office, were working on
establishing a service-level agreement with the Foreign Post Telephone branch.

Recommendation 9: The Bureau of Information Resource Management should implement
service-level agreements between its program offices and the Regional Information Management
Centers that outline roles and responsibilities, including expected services, staffing requirements,
and performance metrics. (Action: IRM)

Property Management

        The RIMCs receive administrative services from host posts or domestic offices/bureaus;
however, they retain responsibility for their program property, such as radio and network
management equipment. The total value of program property held by the RIMCs at the time of
the inspection was estimated at $3.3 million. All three RIMCs have varying degrees of internal
control deficiencies that weaken property accountability. The problems span the length of the
supply chain process. There are no standard operating procedures for receiving items, bringing
and maintaining them under property control, issuing them to users, or disposing of them
properly. The challenges are amplified by turnover in personnel, lack of management oversight,
and the number of items that transit the RIMCs en route to serviced posts.

                                       11
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


         At the time of the inspection, RIMC Ft. Lauderdale’s custodial officer was new and could
not locate documentation or explain discrepancies in the few documents that he could find.
RIMC Frankfurt did not conduct an annual inventory as required by instructions in 14 Foreign
Affairs Manual (FAM) 416.2. RIMC Bangkok complied with Department instructions, but its
inventory was affected by items shown in the Integrated Logistics Management System as in
transit to or from other posts/offices. At the time of the inspection, RIMC Bangkok had
completed another 100-percent inventory and was reconciling its records in consultation with the
Bureau of Administration’s Office of Logistics Management. The RIMCs are facing the current
challenge of complying with mandatory use of the Integrated Logistics Management System to
track, inventory, and reconcile their program property. The absence of an accurate inventory
places government property at risk to waste and abuse.

Recommendation 10: The Bureau of Information Resource Management should implement
property accountability processes and procedures that comply with Department of State
regulations regarding program property. (Action: IRM)

        The RIMCs face a particular property accountability problem that stems from the large
number of items they ship to and receive from Washington and serviced posts. The current
process is cumbersome and entails sending emails to the Office of Logistics Management desk
officer, who then moves the items from one property account to the other. This process is
inefficient, prone to human error, and makes poor use of valuable officer time.

Recommendation 11: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should implement standard procedures to reconcile items in transit
to and from the Regional Information Management Centers. (Action: IRM, in coordination with
A)

Quality Management

        The RIMCs have multiple processes to manage their overseas travel to render assistance,
which consumes the vast majority of their IRM operating budget. The inspectors noted that each
RIMC process appeared to have some rudiments of a quality management system but were not
well documented or standardized. The OIG team therefore was unable to determine whether any
of the processes complied with 5 FAM 611, which establishes standards for management of IT
investments and applies to all Department personnel involved in program planning,
development, modification, integration, operation, and maintenance. The OIG team could not
validate the existence of a project quality management framework that included quality planning,
control, and assurance components as described in 5 FAM 641. The correct structure would
encompass the tasks of planning, prioritizing, allocating resources, executing the mission,
assessing effectiveness, and continuously improving performance.

Recommendation 12: The Bureau of Information Resource Management should implement a
quality management system that governs and documents the travel and job assignments of
personnel in the Regional Information Management Centers. (Action: IRM)




                                       12
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Centralized Knowledge Management and Collaboration Platform

        The RIMCs do not have a centralized knowledge management and collaboration platform
to exchange and share information among themselves and with their customers. Each RIMC
maintains its own Web site. The types of information provided are not standardized and
consistent across the sites. The RIMCs’ main goal is to provide real-time operational
maintenance support to their customers. Until the establishment of the RIMC Washington office,
the RIMCs operated independently of one another and shared information and collaborated only
informally.

         RIMC personnel indicated that customers often open IT support tickets or contact RIMC
staff directly with requests that could be solved by conducting simple Internet research or
reviewing product manuals. Establishing a centralized knowledge management and collaboration
platform would make relevant technical and support information available at all times to
customers and technicians alike. Most important, a single RIMC Web site would be a 24/7
resource for customers and would reduce the number of support requests and the reliance on
RIMC technicians. The site would also enforce collaboration among technicians for sharing and
documenting frequently asked questions.

Recommendation 13: The Bureau of Information Resource Management should establish a
single centralized knowledge management and collaboration platform for the Regional
Information Management Centers. (Action: IRM)

Service Request Management Remedy Software

        RIMC personnel do not consistently document and track service requests in Remedy, a
Department-provided IT service request management software platform. RIMC staff told the
OIG team that Remedy does not include codes for all RIMC services, such as radio, telephone,
and digital support. Furthermore, employees indicated that the Department’s IT Service Center,
which responds to all IT service requests, does not understand RIMC services. As a result, the IT
Service Center misroutes requests to RIMC technicians, resulting in wasted technician time. In
addition, the RIMCs often receive direct support requests by means of phone calls, emails, or
cables. RIMC staff seldom record these requests in Remedy.

       Tracking services would allow the RIMCs to identify frequently recurring issues and
incorporate solutions to these issues into a centralized knowledge management Web site to
empower their customers. During the inspection, RIMC staff indicated that technicians spend
considerable time responding to service requests when they are not traveling for on-site support.
Without well-documented service requests, the RIMCs cannot show their service request
workload, which informs staff rightsizing and training efforts. Recognizing the deficiencies in
the Remedy software, the RIMC Washington office has already designated RIMC personnel to
work with the IRM office responsible for managing the Remedy software to address these issues.

Recommendation 14: The Bureau of Information Resource Management should update the
Service Request Management Remedy software to include the Regional Information
Management Centers’ services and train staff at the Information Technology Service Centers and
Regional Information Management Centers on use of the software. (Action: IRM)

                                       13
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Recommendation 15: The Bureau of Information Resource Management should institute a
policy for the Regional Information Management Centers to use the Department of State’s
Service Request Management Remedy Software to document and track service requests. (Action:
IRM)




                                     14
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



List of Recommendations

Recommendation 1: The Bureau of Information Resource Management, in coordination with
the Office of Management Policy, Rightsizing, and Innovation, and the Bureaus of European and
Eurasian Affairs, East Asian and Pacific Affairs, African Affairs, Near Eastern Affairs, South
and Central Asian Affairs, and Western Hemisphere Affairs, should implement by January 2015
a plan that reduces the current Regional Information Management Centers’ overseas presence by
80 percent and that maintains those overseas positions that are necessary to provide time-
sensitive, immediate-response services. (Action: IRM, in coordination with M/PRI, EUR, EAP,
AF, NEA, SCA, and WHA)

Recommendation 2: The Bureau of Information Resource Management should define and
prioritize the Regional Information Management Centers’ overseas and U.S.-based services,
limiting those performed from overseas support platforms to repair and crisis-response support
and making the stateside operation responsible for all other services such as surveys,
installations, equipment upgrades, preventive maintenance, and help desk support. (Action:
IRM)

Recommendation 3: The Bureau of Information Resource Management, in coordination with
the Bureaus of European and Eurasian Affairs, East Asian and Pacific Affairs, African Affairs,
Near Eastern Affairs, South and Central Asian Affairs, and Western Hemisphere Affairs, should
define the roles and responsibilities of the Regional Information Management Centers during
crisis events and put appropriate emergency action plans into place. (Action: IRM, in
coordination with EUR, EAP, AF, NEA, SCA, and WHA)

Recommendation 4: The Bureau of Information Resource Management, in coordination with
the Bureau of European and Eurasian Affairs, should direct the Frankfurt Regional Information
Management Center to cease management of the Bureau of European and Eurasian Affairs
information management rover program. (Action: IRM, in coordination with EUR)

Recommendation 5: The Bureau of Information Resource Management, in coordination with
the Foreign Service Institute, should cease managing the Information Technology Training
Centers through the Regional Information Management Centers and cease assigning information
management specialists to instructor positions at the Regional Information Management Centers.
(Action: IRM, in coordination with FSI)

Recommendation 6: The Bureau of Information Resource Management, in coordination with
the Bureau of European and Eurasian Affairs, should cease the Frankfurt Regional Information
Management Center’s management of the hard-drive destruction program. (Action: IRM, in
coordination with EUR)

Recommendation 7: The Bureau of Human Resources, in coordination with the Bureau of
Information Resource Management, should authorize managers assigned to the Regional
Information Management Center in Ft. Lauderdale 3–5 days of consultations in Washington en
route to the Ft. Lauderdale office. (Action: DGHR, in coordination with IRM)

Recommendation 8: The Bureau of Information Resource Management, in coordination with
the Foreign Service Institute, should implement a formalized career-span training continuum

                                      15
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


with demonstrable proficiency standards for information management technology specialist staff.
(Action: IRM, in coordination with FSI)

Recommendation 9: The Bureau of Information Resource Management should implement
service-level agreements between its program offices and the Regional Information Management
Centers that outline roles and responsibilities, including expected services, staffing requirements,
and performance metrics. (Action: IRM)

Recommendation 10: The Bureau of Information Resource Management should implement
property accountability processes and procedures that comply with Department of State
regulations regarding program property. (Action: IRM)

Recommendation 11: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should implement standard procedures to reconcile items in transit
to and from the Regional Information Management Centers. (Action: IRM, in coordination with
A)

Recommendation 12: The Bureau of Information Resource Management should implement a
quality management system that governs and documents the travel and job assignments of
personnel in the Regional Information Management Centers. (Action: IRM)

Recommendation 13: The Bureau of Information Resource Management should establish a
single centralized knowledge management and collaboration platform for the Regional
Information Management Centers. (Action: IRM)

Recommendation 14: The Bureau of Information Resource Management should update the
Service Request Management Remedy software to include the Regional Information
Management Centers’ services and train staff at the Information Technology Service Centers and
Regional Information Management Centers on use of the software. (Action: IRM)

Recommendation 15: The Bureau of Information Resource Management should institute a
policy for the Regional Information Management Centers to use the Department of State’s
Service Request Management Remedy Software to document and track service requests. (Action:
IRM)




                                       16
                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                           Name      Arrival Date
Washington
   Director                      Jasper R. Daniels    10/29/2012
Ft. Lauderdale
   Director                        Anthony Muse       09/10/2012
   Deputy Director              Roger W. Johnson       8/15/2009
Frankfurt
   Director                       Frontis Wiggins      7/10/2011
   Deputy Director               Robert L. Adams        9/3/2010
   Deputy Director               Mark S. Butchart      9/29/2011
Bangkok
   Director                      Patrick Meagher         8/8/2011




                                  17
                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations
Department        U.S. Department of State

EUR               Bureau of European and Eurasian Affairs

FAM               Foreign Affairs Manual

FSI               Foreign Service Institute

IM                Information management

IMO               Information management officer

IMS               Information management specialist

IMTS              Information management technology specialist

IRM               Bureau of Information Resource Management

IT                Information technology

LE                Locally employed (staff)

M/PRI             Office of Management Policy, Rightsizing, and Innovation

RIMC              Regional Information Management Center




                             18
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





SENSITIVE BUT UNCLASSIFIED

